DLA Piper LLP (US)
500 Eighth Street, NW
Washington, DC 20004

DLA PIPER www.dlapiper.com

Peter Karanjia
peter.karanjia@dlapiper.com
T 202.799.4135

F 202.863.7855

December 23, 2019
VIA HAND DELIVERY
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: James Dwight Pavatt v. Tommy Sharp, No. 19-697 (U.S.) (Capital Case)
Dear Mr. Harris:

As counsel of record for Petitioner James Dwight Pavatt in the above-referenced case, I
am writing to grant blanket consent to the filing of a brief amicus curiae by any person or entity
in connection with the petition for a writ of certiorari. This consent applies without regard to the
position taken or the party being supported by the brief.

Very truly yours,
Peter Karanjia

ce: Jennifer L. Crabb (via email and overnight mail)
